    Audit Report




    OIG-10-021
    Management Letter for Fiscal Year 2009
    Audit of the Financial Management Service’s
    Schedule of Non-Entity Government-wide Cash

    December 10, 2009




    Office of
    Inspector General
    Department of the Treasury




0
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL




            MEMORANDUM FOR DAVID A. LEBRYK, COMMISSIONER
                           FINANCIAL MANAGEMENT SERVICE

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2009
                                  Audit of the Financial Management Service’s
                                  Schedule of Non-Entity Government-wide Cash


            I am pleased to transmit the attached management letter in connection with the
            audit of the Financial Management Service’s (FMS) Fiscal Year (FY) 2009 Schedule
            of Non-Entity Government-wide Cash. Under a contract monitored by the Office of
            Inspector General, KPMG LLP, an independent certified public accounting firm,
            performed an audit of FMS’s Schedule of Non-Entity Government-wide Cash for
            FY 2009. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses a matter relating to Government-wide Cash that
            was identified during the audit but was not required to be included in the auditors’
            reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.
Page 2

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:   Richard L. Gregg
      Acting Fiscal Assistant Secretary
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




December 7, 2009


Inspector General, U.S. Department of the Treasury and the
Commissioner of the Financial Management Service:


We have audited the Schedules of Non-Entity Government-wide Cash (GWC) of the U.S. Department of
the Treasury’s Financial Management Service (FMS) as of September 30, 2009 and 2008 (hereinafter
referred to as the Schedules), and have issued our report thereon dated December 7, 2009. In planning and
performing our audit of these Schedules, in accordance with auditing standards generally accepted in the
United States of America, we considered internal control over financial reporting relating to GWC as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the Schedules and
not for the purpose of expressing an opinion on the effectiveness of FMS’ internal control over financial
reporting relating to GWC. Accordingly, we do not express an opinion on the effectiveness of FMS’
internal control over financial reporting relating to GWC. We have not considered internal control since the
date of our report.

During our audit we noted a matter relating to GWC that we present for your consideration. This comment
and recommendation, which has been discussed with appropriate members of FMS management, is
intended to improve internal control over financial reporting, and is summarized in the Exhibit.

Our audit procedures are designed primarily to enable us to form an opinion on the Schedules described
above, and therefore may not bring to light all deficiencies in policies, procedures, or internal control that
may exist. We aim, however, to use our knowledge of FMS relating to GWC gained during our work to
make comments and suggestions that we hope will be useful to you. We would be pleased to discuss this
comment and recommendation with you at any time.

FMS’ response to our comment and recommendation has not been subjected to the auditing procedures
applied in our audit of the Schedules, and, accordingly, we express no opinion on them.

This communication is intended solely for the information and use of FMS management, the U.S.
Department of the Treasury Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
                                                                                               EXHIBIT


                                    U.S. Department of the Treasury
                                     Financial Management Service
    Schedules of Non-Entity Government-wide Cash (GWC) as of September 30, 2009 and 2008


                           Current Year Comments and Recommendations


1. Understatement of the Schedule of Non-Entity Government-wide Cash as of June 30, 2009

The June 24, 2009 transcript from the Treasury Check Information System (TCIS) transit account
subsidiary ledger was blank when initially posted to STAR (Treasury’s Central Accounting System), and
the transcript data was not entered into STAR until July 8, 2009. Therefore, the GWC schedule as reported
at June 30, 2009 was incomplete because the STAR general ledger, which supports the GWC schedule, did
not agree to TCIS. This occurred because system edit checks in STAR do not check nor alert FMS to
blank transcripts submitted by TCIS. As a result, we noted an understatement of the GWC balance, as of
June 30, 2009, totaling $32.4 million.

OMB Circular No. A-123, Management’s Responsibility for Internal Control, states “transactions should
be promptly recorded, properly classified and accounted for in order to prepare timely and reliable
financial and other reports.”

Recommendation:

We recommend that FMS implement procedures to ensure that rejected duplicate transcripts from TCIS are
identified, and, if necessary, promptly entered into STAR, and reported in the GWC Schedule.

Management’s Response:

FMS has implemented procedures to ensure that rejected duplicate transcripts from TCIS are identified,
researched, and if necessary, promptly entered into STAR, and reported in the GWC Schedule. The Cash
Accounting Division (CAD) obtains a daily STAR report of rejected duplicate transcripts from TCIS and
contacts the TCIS staff to identify the cause of any rejected items. If CAD determines it is necessary, the
rejected duplicate transcript is entered into STAR and reported in the GWC Schedule.
